mwe.com
Michael B. Kimberly
Attorney at Law
mkimberly@mwe.com
+1 202 756 8901

October 5, 2020
BY ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

North Cypress Medical Center Operating Company v. Cigna Healthcare, No. 20-378

Dear Mr. Harris:
I represent respondents in this case. The petition for a writ of certiorari was filed on
September 18, 2020 and docketed on September 24, 2020. Respondents’ brief in opposition is
due, without extension, on October 26, 2020. Pursuant to Rule 30.4, I respectfully request a 30day extension of time to file a brief in opposition, to and including November 25, 2020.
The extension is necessary in light of the press of other business, including proximate
due dates in numerous other cases before this Court and pending appeals in the Second, Seventh,
and Tenth Circuits and the D.C. Court of Appeals.
Thank you for your attention to this matter.

Sincerely,

cc: counsel of record for petitioner

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

